NO. 20-1668

In the
Supreme Court of the United States
CITY OF TAHLEQUAH, OKLAHOMA;
BRANDON VICK; JOSH GIRDNER,

Petitioners,
v.
AUSTIN P. BOND, AS SPECIAL ADMINISTRATOR OF
THE ESTATE OF DOMINIC F. ROLLICE, DECEASED,

Respondent.
__________________________

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
MOTION FOR LEAVE TO FILE AND
BRIEF OF AMICUS CURIAE
NATIONAL POLICE ASSOCIATION
IN SUPPORT OF PETITIONERS
ROBERT S. LAFFERRANDRE

COUNSEL OF RECORD

RANDALL J. WOOD
JEFFREY C. HENDRICKSON
PIERCE COUCH HENDRICKSON
BAYSINGER & GREEN, L.L.P.

1109 NORTH FRANCIS AVENUE
OKLAHOMA CITY, OK 73106
(405) 235-1611
RLAFFERRANDRE@PIERCECOUCH.COM
COUNSEL FOR AMICUS CURIAE

JUNE 30, 2021
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

Motion–1
MOTION FOR LEAVE TO FILE BRIEF
Under Supreme Court Rule 37.2(b), the National
Police Association (“NPA”) respectfully moves for an
Order from the Court granting it leave to file the
accompanying brief as amicus curiae in support of the
Petitioners. The consent of counsel for Petitioners,
City of Tahlequah, Oklahoma, Brandon Vick, and Josh
Girdner, has been obtained via electronic mail dated
June 10, 2021, but the consent of counsel for Respondent Austin Bond, as Special Administrator of the
Estate of Dominic Rollice, was withheld via electronic
mail dated June 11, 2021, without stating a reason.
Rule 37.2(a) requires that the consent of counsel be
obtained at least 10 days before submission of an
amicus curiae brief. Respecting this rule, NPA
requested the consent of Petitioners and Respondents
via electronic mail on June 9, 2021 and June 11,
2021, respectively. These dates were well in advance
of the July 1, 2021 deadline to file amicus curiae
briefs in support of Petitioners. By so requesting, NPA
provided counsel for Petitioners and Respondent notice
of this organization’s interest in this case prior to the
drafting of the amicus curiae brief.
The National Police Association is an Indiana nonprofit corporation founded to provide educational
assistance to supporters of law enforcement and
support to individual law enforcement officers and
the agencies they serve. The NPA seeks to bring
important issues in the law enforcement realm to the
forefront of public discussion in order to facilitate
remedies and broaden public awareness.
As part of its efforts to advocate for law enforcement the nation over, the NPA participates in the

Motion–2
judicial process when and where legal issues important
to the effective and compassionate administration of
justice are implicated. The NPA has filed numerous
amicus curiae briefs in state and federal courts nationwide pursuant to the above-stated goals.
In the amicus brief filed concurrently with this
Motion, the NPA brings to the Court’s attention unique
factual and legal problems posed by the decision below.
These problems include the fact that the decision below
directly contradicts binding Supreme Court precedent
that has governed Fourth Amendment excessive force
claims for over thirty years. Moreover, the decision
below places citizens and law enforcement in increased
danger because of a new, on-the-spot, and near-impossible analysis it requires officers to make in high-stress,
life-or-death situations. These concerns, discussed at
length in the accompanying amicus curiae brief, provide the reasons the Court should grant NPA’s motion.
Respectfully submitted,
ROBERT S. LAFFERRANDRE

COUNSEL OF RECORD

RANDALL J. WOOD
JEFFREY C. HENDRICKSON
PIERCE COUCH HENDRICKSON
BAYSINGER & GREEN, L.L.P.

1109 NORTH FRANCIS AVENUE
OKLAHOMA CITY, OK 73106
(405) 235-1611
RLAFFERRANDRE@PIERCECOUCH.COM

COUNSEL FOR AMICUS CURIAE
NATIONAL POLICE ASSOCIATION
JUNE 30, 2021

